W                                                               September 30, 1998


TO:           AO/Chief Information Officer

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Audit of the Year 2000 Date Conversion –
              Assessment Phase
              Assignment Number A-HA-98-032
              Report No. IG-98-040


The subject final report is provided for your use and comment. Our evaluation of your
response is incorporated into the body of the report. The corrective actions taken or
planned for recommendations 2 and 3 were responsive. With respect to the nonconcurrence
with recommendation 1, we reaffirm our position and have provided additional information
for your consideration. Accordingly, we request that management reconsider its position on
recommendation 1 and provide us additional comments by November 1, 1998. We consider
recommendations 2 and 3 to be closed.

If you have questions concerning the report, please contact Mr. Brent Melson, Program
Director for Information Assurance Audits, at (202) 358-2588, or Ms. Clara Lyons,
Auditor-in-Charge, at (216) 433-8985. We appreciate the courtesies extended to the audit
staff. The report distribution is in Appendix D.


[original signed by]
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
JM/Director, Management Assessment Division
                                                        IG-98-040

AUDIT
REPORT

                             YEAR 2000 DATE CONVERSION –
                                 ASSESSMENT PHASE


                                   SEPTEMBER 30, 1998




National Aeronautics and
Space Administration

                           OFFICE OF INSPECTOR GENERAL
ADDITIONAL COPIES

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W
       300 E St., SW
       Washington, DC 20546

NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential upon request to the extent permitted by law.

ACRONYMS

ARC            Ames Research Center
CIO            Chief Information Officer
COTS           Commercial-off-the-Shelf
FY             Fiscal Year
GSFC           Goddard Space Flight Center
IT             Information Technology
JSC            Lyndon B. Johnson Space Center
KSC            John F. Kennedy Space Center
LeRC           Lewis Research Center
MSFC           George C. Marshall Space Flight Center
OMB            Office of Management and Budget
OIG            Office of Inspector General
Y2K            Year 2000
  Report on the Audit of the Year 2000 Date Conversion – Assessment Phase

Introduction

The NASA Office of Inspector General (OIG) is conducting an ongoing audit of the Agency’s
assessment of the Year 2000 (Y2K) date conversion problem. NASA has devoted considerable
resources to remedy this Y2K problem. This report reflects a limited review of the assessment
phase, and does not provide conclusions on the overall effectiveness of NASA’s Y2K program.

The overall objective of the audit was to determine whether NASA has adequately assessed the
magnitude of the effort and is accurately reporting the results of its assessment. During a
planning discussion with representatives from the Office of the Chief Information Officer (CIO),
the OIG made a commitment to provide proactive feedback on any findings or concerns identified
during the audit. This report discusses issues associated with the inventory process and cost
estimations at Ames Research Center (ARC), Goddard Space Flight Center (GSFC), Lyndon B.
Johnson Space Center (JSC), John F. Kennedy Space Center (KSC), Lewis Research Center
(LeRC), and George C. Marshall Space Flight Center (MSFC). Appendix A contains additional
information on our audit objectives, scope, and methodology.

We are continuing our audit efforts on the adequacy of the inventory process, classification of
systems by criticality, compliance testing, conversion strategies, data exchanges, and contingency
planning.

Results in Brief

Overall, NASA has established demanding goals and made noteworthy progress in addressing the
Y2K date conversion problem. However, the Centers we reviewed did not have documented
support for cost estimates reported to the Office of Management and Budget (OMB) and did not
prepare them using a consistent methodology for estimating costs. As a result, we could not
determine the reasonableness of the estimates. Documentation did not always exist at JSC and
KSC to support the manner in which assessments for Y2K compliance were conducted and the
decisions reached based on those assessments. As a result, the two NASA Centers may have
overstated the extent of Y2K compliance. Also, NASA Centers can improve on sharing
information on the status of Y2K compliance associated with commercial-off-the-shelf (COTS)
products in order to avoid duplication of testing efforts and associated costs.

Background

Many computer systems and applications use a standard two-digit format (MM/DD/YY) to
generate a date. The change of date from 1999 to 2000 and beyond has the potential to affect the
integrity of data and the continuity of processing capabilities. With the Y2K change, any system
or program, including desktop software, could be affected when two digits are used to represent
the year.

The Y2K assessment process includes identifying and evaluating the criticality of information
systems. However, the process cannot be limited to a simple inventory of applications and
computing platforms. Strategies to test for date compliance, correct identified problems, develop
contingency plans, and estimate costs must be in place.

Because of the anticipated magnitude and potential effects of the Y2K problem in the Federal
Government, the President issued Executive Order 13073, February 4, 1998, “Year 2000
Conversion,” directing Federal agencies to ensure that no critical Federal program disruption
occurs because of Y2K problems. OMB Memorandum No. 98-02, “Progress Reports on Fixing
Year 2000 Difficulties,” January 20, 1998, requires some Federal agencies, including NASA, to
provide quarterly reports on progress in addressing the difficulties relating to the Y2K problem.
Among other items, NASA must report (1) progress in identifying and fixing mission-critical and
nonmission-critical systems, (2) estimates of cost for fiscal years (FYs) 1996 through 2000, (3)
efforts to identify data exchanges, and (4) the approach for contingency planning.

The NASA Administrator initiated the Y2K program in 1996 and is accountable for its ultimate
success. He has delegated accountability and responsibility for the overall Y2K program to the
NASA CIO. The Y2K program has a management approach that is consistent with, and
supportive of, the Agency’s framework for strategic and program management. The Y2K
program manager, who reports directly to the NASA CIO, has day-to-day responsibility for
managing the program. Enterprise Associate Administrators and Center Directors are
accountable for ensuring that Y2K program requirements are met within their respective areas of
responsibility. Enterprise CIO representatives have been assigned and are responsible for
coordinating Y2K progress at the Centers for which they have institutional responsibility. Center
CIO representatives have been assigned and are responsible for ensuring that all Y2K problems or
deficiencies are identified, planned for, and resolved on schedule and within budget. The
Enterprise Associate Administrators and the Center Directors have delegated signature authority
to the Enterprise CIO and Center CIO representatives, respectively. Each Center has designated
a Y2K project manager responsible for the day-to-day management and oversight of Center Y2K
initiatives.




                                                2
Y2K Cost Estimates

Finding. NASA cannot adequately support the Y2K cost estimates it is reporting to OMB.
OMB requires heads of selected agencies to provide quarterly reports outlining the status and
related cost estimates of Y2K efforts. Although OMB requires the Agency to submit cost
estimates, the NASA CIO has not provided detailed guidance to the Centers regarding cost
models and estimation strategies or the maintenance of supporting documentation. As a result,
some Centers prepared cost estimates inconsistently and at least three Centers had inadequate
support for their estimates. Therefore, the estimates may not adequately reflect the cost of Y2K
remediation.

NASA provided Y2K remediation cost estimates to OMB for the first time in May 1997 and
continues to provide updates on a quarterly basis. NASA’s consolidated cost estimate reported in
August 1998 totaled $46.9 million. The cost estimate included data the Centers provided to the
NASA Y2K program manager. The CIO did not provide the Centers specific guidance on
estimating costs to ensure consistency in estimating and reporting cost components. Also, the
Centers had limited detail to support their cost estimates. To some extent, at least three Centers
based cost estimating on oral communications with little or no supporting documentation from
Center personnel to the Center Y2K manager. In addition, cost estimate components varied from
Center to Center. For example, some Centers included labor costs in their cost estimates while
other Centers do not track labor costs. In other instances, some Centers either have not tracked
or have stopped tracking actual costs for Y2K remediation that could be used to adjust cost
estimates.1

In its Memorandum 97-13, “Computer Difficulties Due to the Year 2000 – Progress Reports,”
May 7, 1997, OMB outlined a reporting format for quarterly reports. One of the requirements
calls for reporting any changes to estimates of Y2K information technology costs. OMB revised
the cost estimate requirement in Memorandum 98-02, “Progress Reports on Fixing Year 2000
Difficulties,” January 20, 1998, by requiring agencies to report estimated costs each reporting
period, even if the estimate has not changed. Further, OMB Memorandum 98-14,
“Comprehensive Plans and Associated Funding Requirements for Achieving Year 2000 Computer
Compliance,” August 13, 1998, requested agencies to provide comprehensive plans and
associated funding requirements for achieving Y2K compliance. OMB will use the plans and
funding requirements to assess FY 1999 Y2K funding requirements in light of evolving
congressional action on the pending FY 1999 appropriations bills.

Although the OMB requirement for reporting estimated costs has been in place since May 1997,
the CIO has not provided specific detailed guidance to the Centers on estimating Y2K costs.
A few of the Centers made good faith efforts to provide realistic initial cost estimates. However,
we could not determine whether the total cost estimates NASA reported to OMB were


1
    NASA’s current accounting system does not allow for the unique identification of all Y2K costs.
                                                          3
consistently prepared or supportable. Therefore, NASA’s Y2K cost estimates may not
adequately reflect the true cost of Y2K remediation efforts.

The importance of tracking and estimating Y2K costs has increased given OMB’s August 13,
1998, request for NASA’s FY 1999 Y2K funding requirements. Accurate funding requirements
are a key component in congressional action regarding Y2K contingency funds. The lack of
consistent and supportable funding requirements, whether actual or estimated costs, could affect
the amount of contingency funds available to the Agency.

Recommendation 1. The NASA CIO should develop and issue guidance on the methodology
Centers should use in estimating and adjusting Y2K cost estimates and on maintaining appropriate
supporting documentation for the estimates.

Management’s Response. Nonconcur. The CIO stated that early in the Y2K program, his
predecessor communicated directly with Center CIOs to provide guidance on common Y2K cost
elements and on consistent Agency approaches for estimating costs. The current CIO has
provided cost guidance to the Centers through a December 1997 workshop and as part of the
Agency’s Budget Program Operating Plan process. The cost guidance is consistent with OMB
cost guidance. The CIO stated that historical and projected estimated costs reported by each
NASA Center are aggregated to provide an overall Agency Y2K cost estimate that is documented
and maintained in the NASA Y2K program management database.

Evaluation of Management’s Response. We consider management’s comments nonresponsive
to the recommendation. Although management stated that common Y2K cost elements and cost
guidance were provided, we found no written documentation to support that statement.
Additionally, the audit showed that the Centers are using different methodologies in their cost
estimates. We believe that detailed guidance on specific cost elements, cost models, estimation
strategies, and the maintenance of supporting documentation should be provided to the Centers.
NASA is documenting and maintaining estimated costs in the NASA Y2K program management
database; however, the database shows only a total for FYs 1996 through 2000 for each Center’s
cost estimates. We ask management to reconsider its position in response to the final report.

Documentation of Inventory Assessment for Y2K Compliance

Finding. NASA initiated the assessment phase for Y2K compliance in August 1996 and
completed it in August 1997. During that phase, the Centers identified information technology
(IT) and non-IT systems (for example, facilities or aircraft that may have products with embedded
processing chips that are date sensitive) and assessed their vulnerability for Y2K problems. JSC
has not always documented its analyses of non-IT systems, and KSC has not documented the
analysis of one information technology (IT) system for Y2K compliance during the assessment
phase. Although the NASA CIO issued guidance on July 2, 1998, for documenting Y2K
compliance, adequate guidance was not available during the critical, early stages of the assessment

                                                4
phase. Without documentation, the Agency has no assurance that all date-sensitive systems have
been adequately assessed for Y2K compliance.

During the initial stages of assessment, when as all NASA Centers were to identify IT and non-IT
systems and to analyze or test for Y2K compliance, the CIO had not yet provided adequate
guidance and procedures for the certification process. On July 2, 1998, the CIO issued the
“NASA Year 2000 Agency Test and Certification Guidelines and Requirements.” The document
requires inventory items that have been classified as “not date sensitive” to be either tested or
documented as “not date sensitive.” The document also requires a signed certification statement
by a NASA employee and outlines comprehensive guidelines for assessment, including
requirements for the documentation of testing methods used. By the time the CIO published the
guidance, many systems had already been evaluated for Y2K compliance.

Examples of systems that lack documentation include:

§   The KSC Record and Playback Subsystem. This is a subsystem of the Launch Processing
    System for the Space Shuttle. The subsystem records all Shuttle raw telemetry data and
    troubleshoots vehicle and payload operations.

§   The JSC Central Security Control System. This system controls site entry and access to
    critical facilities and resources.

§   Aircraft at JSC. NASA uses aircraft for a variety of experiments and research. These aircraft
    can have Y2K-sensitive systems and subsystems.

Because systems make use of dates in a variety of ways, there is no single process for determining
compliance. Various strategies must be considered to determine the appropriate evaluation
methodology. For example, the evaluation can require testing or communication with the
manufacturer. Therefore, documentation of the assessment for compliance should be required to
establish accountability for assessment methods used and decisions reached. Additionally,
adequate documentation may be needed for future system reevaluation and the prevention of
unnecessary or duplicative testing.

Recommendation 2. The NASA CIO should direct the Centers to identify all IT and non-IT
systems that have been assessed for Y2K compliance and ensure that documentation supports the
work performed and conclusions reached.

Management’s Response. Concur. The CIO has provided written guidance, approaches for
testing, and certification and will reemphasize the importance of supporting the work performed
and conclusions reached with documentation.

Evaluation of Management’s Response. The actions taken by the NASA CIO are responsive to
recommendation 2.

                                                5
Inventory for COTS Products

Finding. Centers are not sharing information on the status of COTS products in an efficient and
effective manner. Information sharing needs improvement because the current process does not
allow for continuous updates as the inventory of COTS products is identified and evaluated. As a
result, the Centers could unnecessarily duplicate product evaluation efforts and incur additional
associated costs.

COTS products are hardware and software that can be purchased commercially. NASA
established a standard Agency-wide process to evaluate and certify COTS products. IT Lead
Centers, ARC, LeRC, and MSFC, have the responsibility for assessing, testing, and certifying
COTS products used by NASA. The Lead Centers built certification-tracking databases and
share information across the Agency through the Internet. However, at least three of the six
Centers reviewed are testing, certifying, and tracking additional inventory lists of COTS products
internally. Activity associated with internally tracked products is currently not shared with other
Centers through updates to the tracking databases. For example, LeRC is internally tracking
about 1,100 workstation COTS products in addition to those products on the certification-
tracking databases. ARC is tracking its local area network COTS products. Because those
products may be used at other Centers, evaluation efforts could be unnecessarily duplicated and
additional associated costs could be incurred.

Recommendation 3. The NASA CIO should direct NASA Center Directors to share all
information on the status of COTS products and to establish processes to reduce redundancy of
evaluation efforts.

Management’s Response. Concur. The CIO has (1) tasked LeRC to evaluate its tracking and
reporting process for desktop product information and will implement recommended
improvements, as appropriate, and (2) will establish a consolidated internal Agency Web site that
will provide direct links to any Center Web-accessible COTS inventory. The CIO plans to
complete this action by October 31, 1998.

Evaluation of Management’s Response. The actions taken or planned by the NASA CIO are
responsive to recommendation 3.

General Comments. Management provided general comments on our report that we address in
Appendix C.




                                                 6
Appendix A

Objective, Scope, and Methodology


Objective

The overall objective of the audit is to determine whether NASA has adequately assessed the
magnitude of the Y2K effort and is accurately reporting to OMB the results of its assessment.
Specifically, we evaluated whether the six Centers have:

§   conducted a comprehensive inventory of IT systems and non-IT systems;

§   adequately tested to identify the magnitude of the Y2K problem;

§   reasonably estimated the cost of fixing the Y2K problem; and

§   accurately reported the status of the Y2K project to the OMB.

Scope and Methodology

To determine whether the six Centers have adequately conducted a comprehensive inventory of
IT systems and non-IT systems, assessed the magnitude of the problem, reasonably estimated the
cost, and are accurately reporting the results of their assessments of Y2K efforts, we:

§   Interviewed the NASA Y2K program manager and Center Y2K project managers at ARC,
    GSFC, JSC, KSC, LeRC, and MSFC.

§   Interviewed appropriate personnel at ARC, GSFC, JSC, KSC, LeRC, and MSFC.

§   Reviewed detailed inventories where available.

§   Reviewed cost estimates and supporting documentation where available.

§   Reviewed OMB quarterly reports submitted by the Centers.

§   Reviewed the NASA Y2K Program Plan.

§   Reviewed the “NASA Year 2000 Agency Test and Certification Guidelines and
    Requirements.”




                                                7
Appendix A

Audit Field Work

We performed field work from June 1 through September 11, 1998, at ARC, GSFC, JSC, KSC,
LeRC, and MSFC. The audit was performed in accordance with generally accepted government
auditing standards.




                                            8
Appendix B

Management’s Response




                        9
Appendix B




             10
Appendix B




             11
Appendix B




             12
Appendix B




             13
Appendix C

Management’s General Comments and Audit Responses


The Chief Information Officer provided the following general comments in response to our draft
report.

Management’s Comments. In his introductory response, the CIO indicates that the report’s
three findings and recommendations do not represent a significant risk to the Agency or the Y2K
Program. While there may be differences of opinion regarding our progress and potential areas of
risk, he believes our report should provide a more balanced perspective of the NASA Y2K
Program.

Audit Response. The Introduction section of this report states that the audit is ongoing and that
this report reflects a limited review of NASA’s assessment phase. We will continue to provide
NASA management with proactive feedback through similar reports as our audit proceeds. While
the issues presented in this report may not represent a serious risk to the Agency or the Y2K
program in the opinion of the CIO, the inability of NASA management to demonstrate the nature
and extent of assessments performed on critical and noncritical systems poses a considerable risk
to NASA. Specifically, documentation of the assessments is essential to ensuring that all required
testing was performed and that all identified deficiencies are corrected. Absent this assurance,
NASA may be faced with either undetected or detected but uncorrected deficiencies, which, in
turn, could impact mission accomplishment. Concerning cost estimates, these are essential to
ensuring that resources are made available and allocated based on the highest priority
requirements. In essence, the cost estimates are the link to resources that provide for detection
and correction of Y2K problems. With regard to COTS, limited resources can be conserved
through the type of sharing of information we recommended and can be put to better use.

Management’s Comments. Regarding Y2K cost estimates, the CIO comments that while the
report questions NASA’s Y2K cost estimates, it offers no evidence that NASA cost estimates are
not valid.

Audit Response. We could not express an opinion on the validity of the cost estimates because of
the lack of documentation to support the development of the estimates.

Management’s Comments. The CIO noted that the correct system title is the Record and
Playback Subsystem.

Audit Response. We agree with the CIO’s comment and have changed the report accordingly.




                                               14
Appendix D

Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters
Code B/Chief Financial Officer
Code B/Comptroller
Code C/Associate Administrator for Headquarters Operations
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code R/Associate Administrator for Aeronautics and Space Transportation Technology
Code S/Associate Administrator for Space Science
Code U/Associate Administrator for Life and Microgravity Sciences and Applications
Code Y/Associate Administrator for Earth Science
Code Z/Acting Associate Administrator for Policy and Plans

NASA Field Installations

Director, Ames Research Center
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Lewis Research Center
Director, George C. Marshall Space Flight Center

NASA Offices of Inspector General

Ames Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center




                                              15
Appendix D


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Acting Director, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
  General Accounting Office
Director, Civil Agencies Information Systems, General Accounting Office
Chief Scientist, General Accounting Office
Chair, President’s Council on the Year 2000 Conversion
Special Counsel, House Subcommittee on National Security, International Affairs, and Criminal
  Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representative




                                             16
                         Major Contributors to This Report

Brent Melson, Program Director for Information Assurance Audits
Clara Lyons, Auditor-in-Charge
Brenda Conley, Auditor
Jim Geith, Auditor
Mike Morigeau, Auditor
Mindy Vuong, Auditor
Mark Zielinski, Auditor
Nancy C. Cipolla, Report Process Manager
